BECKER GALLAGHER
Briefs

and

DONNA). WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Chesley Eugene Saunders v. Secretary,
Florida Department of Corrections, were sent via Three
Day Service to the U.S. Supreme Court, and 3 copies
were sent Three Day Service and e-mail to the
following parties listed below, this 5th day of
November, 2019:
Douglas T. Squire
Office of the Attorney General
444 Seabreeze Boulevard, 5th Floor
Daytona Beach, Florida 32118
(386) 238-4990
do uglas. sq uire@myfloridale gal. com

Counsel for Respondent
Patrick Michael Megaro
Counsel of Record
Jaime T. Halscott
Halscott Megaro, P.A.
1300 North Semoran Boulevard, Suite 195
Orlando, Florida 32807
(407) 255-2164
pmegaro@halscottmegaro.com

Counsel for Petitioner

(800) 890.5001

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 5, 2019.

Wo

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

